No. 20-457
IN THE

Supreme Court of the United States
MARKETGRAPHICS RESEARCH GROUP, INC.,
Petitioner,
v.
DAVID PETER BERGE,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit
CERTIFICATE OF SERVICE

I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3 and 29.5 (as modified by this Court’s Order of April 15,
2020), that I have, this 9th day of December, 2020, served the Brief in Opposition
for Respondent upon each party separately represented in this proceeding by
causing an electronic copy of the same to be delivered to counsel of record at the email address listed below:
Neal Kumar Katyal
HOGAN LOVELLS US LLP
555 Thirteenth St. N.W.
Washington, DC 20004
neal.katyal@hoganlovells.com
Counsel of Record for Petitioner
Pursuant to the Court’s April 15 Order, I certify that all parties have agreed
to accept such electronic service in lieu of service of paper copies. I further certify
that all persons required to be served have been served.

In addition, pursuant to Supreme Court Rule 29.7, I certify that I have
caused electronic copies of all documents to be filed with the Clerk.

____________________________
Brian T. Burgess
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, DC 20036
bburgess@goodwinlaw.com
(202) 346-4000
December 9, 2020

Counsel of Record for Respondent

